APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 1, 2021) ........................... 1a
District Court of Tulsa County, State of Oklahoma,
Findings of Fact and Conclusions of Law (Signed
November 13, 2020, Filed November 16, 2020) ..... 11a
Evidentiary Hearing Stipulations
(November 5, 2020) .......................................... 17a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(October 7, 2020) ..................................................... 22a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 1, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
ROBERT WILLIAM PERRY, II,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2020-46
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS, Judge.,
Robert L. HUDSON, Judge.
SUMMARY OPINION
LEWIS, JUDGE:
Robert William Perry, II, Appellant, was tried by
jury and found guilty of five counts of sexual abuse of
a child under 12, in violation of 21 O.S.Supp.2014,
843.5 (counts 1, 2, and 4-6 of the information) in the
District Court of Tulsa County, Case No. CF-20183720, before the Honorable Kelly Greenough, District

App.2a
Judge. The jury set punishment at, count one, thirtyfive years, count two, forty years, and counts four,
five and six, life imprisonment on each count. Judge
Greenough sentenced accordingly ordering that the
sentences for counts one, four, five and six be served
concurrently to each other and that count two be
served be served consecutively with those counts.
Perry filed a direct appeal and, thereafter a supplemental brief and motion for evidentiary hearing
arguing that the State of Oklahoma did not have
subject matter jurisdiction to prosecute him.
We find relief is required on Perry’s jurisdictional
challenge. Perry’s claim is supported by 18 U.S.C.
§ 1153 and McGirt v. Oklahoma, 591 U.S. ___, 140 S.
Ct. 2452 (2020).
Because there was insufficient evidence in the
original record and Perry raised sufficient proof in
his motion for evidentiary hearing, this Court remanded
this case to the District Court of Tulsa County on
October 7, 2020, for an evidentiary hearing. The District Court was directed to make findings of fact and
conclusions of law on two issues: (a) Perry’s status as
an Indian; and (b) whether the crimes occurred
within the boundaries of the Muscogee (Creek) Nation
Reservation. Our order provided that, if the parties
agreed upon evidentiary matters supporting the
questions raised, the parties could enter into written
stipulation setting forth those facts.
The parties appeared at the Tulsa County District
Court before the Honorable Tracy L. Priddy, District
Judge, on November 5, 2020, and made the following
stipulations regarding question one, (1) that evidence
would show that Perry became a registered citizen of
the Muscogee (Creek) Nation on November 10, 2011,

App.3a
and was so registered at the time of the commission
of these crimes; (2) that evidence would show that
Perry has a 1/128 quantum of Creek blood; and finally
(3) evidence would show that the Muscogee (Creek)
Nation is a federally recognized tribe. Regarding
question two, the parties stipulated that the evidence
would show that the location of the crimes were within
the historical boundaries of the Muscogee (Creek)
Nation Reservation.
The trial court filed its findings of fact and conclusions of law on November 16, 2020. The District Court
found the facts recited above in accordance with the
stipulation. The District Court concluded that Perry
is an Indian under law and that the crimes occurred
within the boundaries of the Muscogee (Creek) Nation
Reservation. The District Court’s findings are supported by the record. The ruling in McGirt governs
the case and requires us to find the District Court of
Tulsa County did not have jurisdiction to prosecute
Perry. Accordingly, we hold that Perry’s jurisdictional
challenge is supported and this case should be dismissed.
DECISION
The judgment and sentence of the District Court is
REVERSED AND REMANDED WITH INSTRUCTIONS TO DISMISS. Pursuant to Rule 3.15, Rules
of the Oklahoma Court of Criminal Appeals, Title 22,
Ch.18, App. (2021), the MANDATE is ORDERED
to issue in twenty (20) days from the delivery and
filing of this decision.

App.4a
APPEAL FROM THE DISTRICT COURT OF
TULSA COUNTY THE HONORABLE KELLY
GREENOUGH, DISTRICT JUDGE
APPEARANCES AT TRIAL
Nick Southerland
Lindsey Holguin
423 S. Boulder Ave., Ste. 300
Tulsa, OK 74103
Attorneys for Defendant
Katie Koljack
Asst. District Attorney
500 S. Denver, Ste. 900
Tulsa, OK 74103
Attorney for the State
APPEARANCES ON APPEAL
Adam Barnett
Stuart Southerland
423 S. Boulder Ave., Ste. 300
Tulsa, OK 74103
Attorneys for Appellant
Mike Hunter
Attorney General
Jennifer Crabb
Julie Pittman
Randall Young
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105

App.5a
James Dunn
Asst. District Attorney
500 S. Denver, Ste. 900
Tulsa, OK 74103
Attorneys for Appellee
Opinion by: Lewis, J.
Kuehn, P.J.: Concur
Rowland, V.P.J. Concur in Result
Lumpkin, J.: Concur in Result
Hudson, J.: Specially Concur

App.6a
ROWLAND, VICE PRESIDING JUDGE,
CONCURRING IN RESULTS
I concur in the result of today’s opinion. However,
consistent with my separate opinion in Bosse v.
State, 2021 OK CR 3, ____ 3d ____. I would find that
the State lacked territorial jurisdiction and not subject
matter jurisdiction.

App.7a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at a
minimum concur in the results of this opinion. While
our nation’s judicial structure requires me to apply
the majority opinion in the 5-4 decision of the U.S.
Supreme Court in McGirt v. Oklahoma, ___ U.S. ___,
140 S. Ct. 2452 (2020), I do so reluctantly. Upon the
first reading of the majority opinion in McGirt I
initially formed the belief that it was a result in
search of an opinion to support it. Then upon reading
the dissents by Chief Justice Roberts and Justice
Thomas I was forced to conclude the Majority had
totally failed to follow the Court’s own precedents,
but had cherry picked statutes and treaties, without
giving historical context to them. The Majority then
proceeded to do what an average citizen who had
been fully informed of the law and facts as set out in
the dissents would view as an exercise of raw judicial
power to reach a decision which contravened not only
the history leading to the disestablishment of the
Indian reservations in Oklahoma, but also willfully
disregarded and failed to apply the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my service
in the Marine Corps was that I had a duty to follow
lawful orders, and that same duty required me to
resist unlawful orders. Chief Justice Roberts’ scholarly
and judicially penned dissent, actually following
the Court’s precedents and required analysis, vividly
reveals the failure of the majority opinion to follow

App.8a
the rule of law and apply over a century of precedent
and history, and to accept the fact that no Indian
reservations remain in the State of Oklahoma.1 The
result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:

I can hardly see where it (the IRA) could
operate in a State like mine where the Indians
are all scattered out among the whites and they
have no reservation, and they could not get
them into a community without you would go
and buy land and put them on it. Then they
would be surrounded very likely with thickly
populated white section with whom they would
trade and associate. I just cannot get through
my mind how this bill can possibly be made to
operate in a State of thickly-settled population.
(emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February
27, 1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could
look forward to building up huge reservations such as we have
granted to the Indians in the past? Id. at 157. In 1940, in the
Foreword to Felix S. Cohen, Handbook of Federal Indian Law
(1942), Secretary of the Interior Harold Ickes wrote in support
of the IRA, “[t]he continued application of the allotment laws,
under which Indian wards have lost more than two-thirds of
their reservation lands, while the costs of Federal administration of these lands have steadily mounted, must be terminated?
(emphasis added).

App.9a
of the solid precedents the Court has established
over the last 100 years or more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application of the McGirt decision?
My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate
that I fulfill my duties and apply the edict of the
majority opinion in McGirt. However, I am not required
to do so blindly and without noting the flaws of the
opinion as set out in the dissents. Chief Justice Roberts
and Justice Thomas eloquently show the Majority’s
mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian
reservations in the state had been disestablished and
no longer existed. I take this position to adhere to my
oath as a judge and lawyer without any disrespect to
our Federal-State structure. I simply believe that when
reasonable minds differ they must both be reviewing
the totality of the law and facts.

App.10a
HUDSON, JUDGE, SPECIALLY CONCURS:
Today’s decision dismisses five separate convictions
for sexual abuse of a child under 12 from the District
Court of Tulsa County based on the Supreme Court’s
decision in McGirt v. Oklahoma, 140 S. Ct. 2452 (2020).
This decision is unquestionably correct as a matter of
stare decisis based on the Indian status of Appellant
and the occurrence of the crimes on the Creek Reservation. Under McGirt, the State has no jurisdiction
to prosecute Appellant for the child sexual abuse in
this case. Instead, Appellant must be prosecuted in
federal court. I therefore as a matter of stare decisis
fully concur in today’s decision. Further, I maintain
my previously expressed views on the significance of
McGirt, its far-reaching impact on the criminal justice
system in Oklahoma and the need for a practical
solution by Congress. See Bosse v. State, 2021 OK CR
3, ___ P.3d ___ (Hudson, J., Concur in Results);
Hogner v. State, 2021 OK CR 4, ___ P.3d ___ (Hudson,
J., Specially Concurs); and Krafft v. State, No. F2018-340 (Okl. Cr., Feb. 25, 2021) (Hudson, J., Specially
Concurs) (unpublished).

App.11a
DISTRICT COURT OF TULSA COUNTY,
STATE OF OKLAHOMA, FINDINGS OF
FACT AND CONCLUSIONS OF LAW
(SIGNED NOVEMBER 13, 2020,
FILED NOVEMBER 16, 2020)
IN THE DISTRICT COURT IN AND FOR
TULSA COUNTY, STATE OF OKLAHOMA
________________________
ROBERT WILLIAM PERRY, II,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Tulsa County District Court Case No. CF-2018-3720
Court of Criminal Appeals Case No. F-2016-46
Before: Tracy PRIDDY, District Judge.
This matter came on for a status conference on
November 5, 2020 pursuant to the remand order of
the Oklahoma Court of Criminal Appeals (“OCCA”)
issued October 14, 2020. Stuart Southerland appeared
on behalf of Appellant, Robert William Perry, II,
whose appearance was waived. Assistants Attorney
General Julie Pittman and Randall Young appeared
for Appellee. Tulsa County Assistant District Attorney
James Dunn also appeared. An evidentiary hearing

App.12a
was not held pursuant to the parties’ announcement
that they had agreed and stipulated to facts supporting
the issues to be determined by this Court.
The Appellant, in his supplemental brief claims
that the District Court lacked jurisdiction to try him
as he is a citizen of the Muscogee Creek Nation and
the crimes occurred within the boundaries of the Creek
Nation [Reservation]. Appellant’s claim raises two
questions: (a) his Indian status, and (b) whether the
crime occurred in the Creek Nation [Reservation].
These issues require fact-finding to be addressed by
the District Court per the OCCA Order Remanding.
I.

Appellant’s status as an Indian

To determine the Indian status of the Appellant,
the OCCA directed the District Court to make findings
of fact as to whether (1) Appellant has some Indian
blood, and (2) is recognized as an Indian by a tribe or
the federal government.1 The Court finds as follows:
Findings of Fact
1. Robert William Perry, II is the named Defendant/Appellant in the above-entitled matter.
2. The parties stipulated that a representative
of the Muscogee (Creek) Nation Citizenship Office
would testify that Robert William Perry, II is a
registered citizen of the Muscogee (Creek) Nation
when the crimes that he was convicted of committing
herein occurred. Robert William Perry II has been a
1 United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).
Generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.

App.13a
citizen of the Muscogee (Creek) Nation since November
10, 2011.2
3. The parties stipulated that a representative
of the Muscogee (Creek) Nation Citizenship Office
would testify that Robert William Perry, II has 1/128
quantum of Creek blood, as indicated in a letter
dated August 2020.3
4. The parties stipulated that the Muscogee
(Creek) Nation is a federally recognized tribe.4
Conclusions of Law
Regarding the first determination, the Court
answers the first inquiry in the affirmative. The
Court adopted the Evidentiary Hearing Stipulations
including the attached documentation filed by the
parties on November 5, 2020 and made findings of
fact thereon. Robert William Perry, II is the named
Defendant in this matter and he has 1/128 quantum
of Creek blood. Although the term “Indian” is not
statutorily defined and various terms such as “sufficient”5, “substantial”6, “significant percentage of”7 or
“some”8 have been used by courts in an attempt to
2 Exhibit 1, Evidentiary Hearing Stipulations 1.
3 Exhibit 1, Evidentiary Hearing Stipulations 2.
4 Exhibit 1, Evidentiary Hearing Stipulations 3.
5 United States v. LaBuff, 658 F.3d 873, 874-75 (9th Cir. 2011)
6 Vialpando v. State, 640 P.2d 77, 79-80 (Wyo. 1982).
7 Goforth v. State, 1982 OK CR 48,116, 644 P.2d 114, 116.
8 United States v. Diaz, 679 F.3d 1183, 1187 (10th Or. 2012).

App.14a
define the quantity of Indian Blood required to satisfy
this inquiry, the OCCA mandate ordered this Court
to determine “whether Appellant has some Indian
blood.”9 Thus, according to the term used by the
OCCA in its Order, this Court concludes Robert
William Perry, II, the named Defendant/Appellant,
has some Indian blood.
Additionally, the Court answers the second part
of the inquiry in the affirmative. The Court adopted
the Evidentiary Hearing Stipulations including the
attached documentation and made findings of fact
thereon. Robert William Perry, II has been recognized
as a citizen of the Muscogee (Creek) Nation since
November 10, 2011 and was recognized as a citizen
of the Muscogee (Creek) Nation at the time of the
offenses. Finally, the Muscogee (Creek) Nation is a
federally recognized tribe. Therefore, Robert William
Perry, II is recognized as an Indian by a tribe or the
federal government.
Having answered both inquiries in the affirmative,
this Court concludes Robert William Perry, II is an
Indian.
II. Whether the Crime Occurred in Indian
Country
The OCCA further ordered the District Court to
determine whether the crime occurred within the
boundaries of the Creek Reservation, referred to as
Indian Country.10 The Court finds as follows:
9 Order Remanding for Evidentiary Hearing October 14, 2020.
10 McGirt v. Oklahoma, 140 S. Ct.2452 (2020); 18 U.S.C. §§ 1152,
1153.

App.15a
Findings of Fact
The parties stipulated that if the victim of the
crimes that Robert William Perry II was convicted of
committing was called as a witness she would testify
that the offenses occurred at 4020 S. 130th East Apt.
201 in Tulsa, Oklahoma and 4915 South Utica Ave.,
Apt. B in Tulsa, Oklahoma.11
The parties stipulated that 4020 S. 130th East
Apt. 201 in Tulsa, Oklahoma and 4915 South Utica
Ave., Apt. B are both within the boundaries of Creek
(Muscogee) Nation.12
Conclusions of Law
The final inquiry is answered in the affirmative.
This Court adopted the parties’ Evidentiary Hearing
Stipulations and made findings of fact thereon. The
crime occurred at two different locations each identified
by a specific address that is within the boundaries of
the Creek Nation’s Reservation. These boundaries
were established through a series of treaties between
the Creek Nation and the United States, and are
explicitly recognized as a reservation defined by 18
U.S.C. § 1151(a). This Court concludes that the crimes
for which Defendant/Appellant was convicted occurred
within the Creek Nation [Reservation]. Based upon
the Supreme Court’s ruling in McGirt v. Oklahoma,
140 S. Ct. 2452, 207 L.Ed.2d 985 (2020), the Creek
Nation Reservation is Indian Country.

11 Exhibit 1, Evidentiary Hearing Stipulations 4.
12 Exhibit 1, Evidentiary Hearing Stipulations 5.

App.16a
WHEREFORE, this Court finds that Robert
William Perry, II is an Indian and the crimes for which
he was convicted occurred in Indian Country for purposes of the General Crimes Act, 18 U.S.C. § 1152
and the Major Crimes Act, 18 U.S.C. § 1153.
IT IS SO ORDERED this 13th day of November,
2020.
/s/ Tracy Priddy
District Judge

App.17a
EVIDENTIARY HEARING STIPULATIONS
(NOVEMBER 5, 2020)
IN THE DISTRICT COURT IN AND FOR
TULSA COUNTY, STATE OF OKLAHOMA
________________________
STATE OF OKLAHOMA,
Plaintiff/Appellee.
v.
ROBERT WILLIAM PERRY II,
Defendant/Appellant,
________________________
Case No. CF-2018-3720, F-2020-46
The parties stipulate that if witnesses were called
to testify at an evidentiary hearing ordered by the
Oklahoma Court of Criminal Appeals by way of a
written order dated October 7, 2020 that the witnesses
would testify as follows:
1. A representative of the Muscogee (Creek)
Nation Citizenship Office would testify that Robert
William Perry II was a registered citizen of the
Muscogee (Creek) Nation when the crimes that he
was convicted of committing herein occurred. Robert
William Perry II has been a citizen of the Muscogee
(Creek) Nation since November 10, 2011. His Roll
Number is 90663.

App.18a
2. A representative of the Muscogee (Creek)
Nation Citizenship Office would testify that Robert
William Perry II has 1/128 quantum of Creek blood,
as indicated in a letter dated August 18, 2020.
3. The parties stipulate that Muscogee (Creek)
Nation is a federally recognized tribe.
4. The parties stipulate that if the victim of the
crimes that Robert William Perry II was convicted of
committing was called as a witness she would testify
that the offenses occurred at 4020 S. 130th East Apt.
201 in Tulsa, Oklahoma and 4915 South Utica Ave.,
Apt. B in Tulsa, Oklahoma.
5. The parties further stipulate that 4020 S. 130th
East Ave. Apt. 201 and 4915 South Utica Ave., Apt. B
are both within the boundaries of Creek (Muscogee)
Nation.
SIGNED THIS 5th DAY OF November, 2020.
Respectfully submitted,
/s/ Randall Young
Assistant Attorney General
Counsel for Plaintiff/ Appellee,
State of Oklahoma
/s/ Erik Greyless
Tulsa County District Attorney’s Office
Counsel for Plaintiff/Appellee,
State of Oklahoma

App.19a
/s/ Stuart W. Southerland
Tulsa County Public Defender’s Office
Counsel for Defendant/Appellant,
Robert William Perry, II

App.20a
MUSCOGEE (CREEK)
NATION ENROLLMENT VERIFICATION
(AUGUST 18, 2020)

MUSCOGEE (CREEK) NATION
ENROLLMENT VERIFICATION
Date: 8/18/2020
To: Whom it May Concern
From: Muscogee (Creek) Nation
Citizenship Board
P.O. Box 580
Okmulgee, OK 74447
Subject: Enrollment Verification
Re: Name: Robert William Perry, II
Address: 5027 S 35th West Ave
Tulsa OK 74107-7433
Birthdate: 6/22/1990
Enrollment Date: November 10, 2011
Roll Number: 90663
Degree of Creek Blood: 1/128
I hereby certify that Robert William Perry, II,
DOB: 6/22/1990 is enrolled with the Muscogee (Creek)
Nation. Enrollment Date: 11/10/2011 Roll Number:
90663, Degree of Creek Blood: 1/128.

App.21a

Sincerely,
/s/ Nathan Wilson
Director
Muscogee (Creek) Nation
Citizenship Office

App.22a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER
REMANDING FOR EVIDENTIARY HEARING
(OCTOBER 7, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
ROBERT WILLIAM PERRY, II,
Appellant,
v.
STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2020-46
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge., Robert L. HUDSON,
Judge., Scott ROWLAND, Judge.
ORDER GRANTING APPELLANT'S MOTION
FOR SUPPLEMENTATION OF RECORD
AND REQUEST TO REMAND FOR
EVIDENTIARY HEARING; REMANDING
MATTER FOR EVIDENTIARY HEARING; AND
GRANTING STATE'S MOTION TO STAY
BRIEFING SCHEDULE PENDING OUTCOME
OF EVIDENTIARY HEARING

App.23a

Appellant Perry filed his brief in chief on June 1,
2020, appealing from his conviction in Tulsa County
Case No. CF-2018 3720. On August 24, 2020, Perry’s
Motion for Supplementation of the Record and Request
to Remand for Evidentiary Hearing (Motion for
Supplementation) was filed with this Court, challenging
the State’s subject-matter jurisdiction pursuant to
the Supreme Court’s decision in McGirt v. Oklahoma,
Case No. 18-9526, 591 U.S. ___ (2020), 2020 WL
3848063. Perry requests this Court remand the matter
for an evidentiary hearing on that claim. That same
date, Perry tendered his supplemental brief for filing,
and filed a motion for leave to file the supplemental
brief out of time.
On September 29, 2020, the State of Oklahoma,
by and through Mike Hunter, Attorney General of
the State of Oklahoma, filed a motion to stay briefing
schedule and request for evidentiary hearing. The
State’s response brief was due September 29, 2020.
The State alleges that Perry’s Motion for Supplementation and tendered brief raise the issue of subjectmatter jurisdiction, claiming that he is an enrolled
member of the Muscogee Creek Nation and that the
crimes were committed on Creek tribal land. The
State alleges it has investigated these claims and has
determined that Perry is an enrolled member of the
Muscogee Creek Nation, having 1/128 blood quantum;
that he was an enrolled member at the time the crimes
were committed; and that the crimes occurred on
Creek tribal land.
Due to the McGirt decision, the State alleges, in
light of the stipulated facts, it must be determined if
Perry is an Indian who committed major crimes on

App.24a
an Indian reservation. The State requests briefing in
this matter be stayed pending this Court’s ruling on
Perry’s motion to supplement and his request for an
evidentiary hearing.
IT IS THEREFORE THE ORDER OF THIS
COURT that Appellant Perry’s Motion to Supplement
the Record and Request to Remand for Evidentiary
Hearing is GRANTED. The Clerk of this Court is
DIRECTED to file Perry’s tendered Supplemental
Brief Regarding Subject-Matter Jurisdiction. The
State’s motion to stay briefing schedule pending the
outcome of the evidentiary hearing is GRANTED.
In his supplemental brief, Appellant claims the
District Court lacked jurisdiction to try him. Appellant
argues that he is a citizen of the Muscogee Creek
Nation and the crimes occurred within the boundaries
of the Creek Nation. Appellant relies on McGirt v.
Oklahoma, No. 18-9526 (U.S. July 9, 2020).
Appellant’s claim raises two separate questions:
(a) his Indian status and (b) whether the crime
occurred in the Creek Nation. These issues require
fact-finding. We therefore REMAND this case to the
District Court of Tulsa County, for an evidentiary
hearing to be held within sixty (60) days from the
date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Appellant’s presentation
of prima facie evidence as to the Appellant’s legal
status as an Indian and as to the location of the

App.25a
crime in Indian Country, the burden shifts to the
State to prove it has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues.
First, the Appellant’s status as an Indian. The
District Court must determine whether (1) Appellant
has some Indian blood, and (2) is recognized as an
Indian by a tribe or the federal government.1
Second, whether the crime occurred within the
boundaries of the Creek Nation. In making this determination the District Court should consider any
evidence the parties provide, including but not limited
to treaties, statutes, maps, and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
1 See Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114, 116.
See also United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).

App.26a
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions
of law and supplemental briefing shall occur as set
forth above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Tulsa County:
Appellant’s Brief in Chief filed June 1, 2020 and his
Supplemental Brief tendered for filing August 24,
2020 and filed contemporaneously with this order.
The Clerk of this Court is DIRECTED to transmit
a copy of this Order to the Court Clerk of Tulsa
County; the District Court of Tulsa County, the
Honorable Kelly Greenough, District Judge; Appellant,
the State of Oklahoma, and all counsel of record.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 7th day of October, 2020.

App.27a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

